Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





   PART B SERVICES DURING 

  NON-PART A NURSING HOME 

   STAYS: DURABLE MEDICAL 

          EQUIPMENT





                    Daniel R. Levinson

                     Inspector General 


                       July 2009

                     OEI-06-07-00100

                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
.
Δ   E X E C U T I V E                                  S U M M A R Y


                  OBJECTIVE
                  To determine the extent of inappropriate Medicare Part B payments for
                  durable medical equipment (DME) provided to nursing home residents
                  during non-Part A stays in 2006.


                  BACKGROUND
                  Medicare Part A covers nursing home care for a beneficiary’s stay of up
                  to 100 days in a skilled nursing facility (SNF). If nursing home care is
                  still needed after the 100 days or the beneficiary did not qualify for a
                  Part A SNF stay, Medicare Part B may provide coverage for certain
                  medical and other health care services. However, Part B does not pay
                  for DME provided during a nursing home stay unless the nursing home
                  qualifies as a beneficiary’s home. A nursing home qualifies as a
                  beneficiary’s home only if it does not provide primarily skilled care or
                  rehabilitation. Only a small number of nursing homes that are certified
                  Medicaid-only, called nursing facilities (NF), or distinct parts of nursing
                  homes (hereafter referred to as distinct part nursing homes) may
                  qualify as a beneficiary’s home. In contrast, no SNFs or dually certified
                  nursing homes (those certified for both Medicare and Medicaid) qualify
                  as a beneficiary’s home because they provide primarily skilled care or
                  rehabilitation. To identify inappropriate payments for DME, we used
                  resident assessment data from the Centers for Medicare & Medicaid
                  Services (CMS) to determine all nursing home stays nationwide during
                  2006. We then analyzed related Medicare claims data for any DME
                  payments during these stays.


                  FINDINGS
                  Medicare Part B allowed inappropriate payments of $30 million in
                  2006 for DME provided during non-Part A stays in Medicare-certified
                  SNFs. Medicare paid 77 percent ($23.4 million) of these claims, and the
                  remaining 23 percent ($7.1 million) was paid by or on behalf of
                  beneficiaries (i.e., by Medicaid, supplemental insurance, or private
                  resources). For 98 percent of these claims, suppliers incorrectly
                  indicated that the DME was for use in the beneficiary’s home.
                  Wheelchairs and oxygen accounted for 72 percent ($22 million) of the
                  inappropriately allowed DME payments. Suppliers also indicated on
                  claims whether the DME was purchased or rented by the beneficiary.
                  We found that the inappropriately allowed DME payments were mostly


OEI-06-07-00100   PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                        i
E X E C U T I V E                       S U          M M A R Y


                   rentals (76 percent or $22.9 million) for which there are payment
                   limitations upon a beneficiary’s nursing home admission.
                   Nearly all of the additional $11.9 million Medicare allowed for DME
                   provided during non-Part A stays in Medicaid NFs and distinct part
                   nursing homes was inappropriate. This conclusion is based on our
                   survey of a sample of 84 NFs and distinct part nursing homes to
                   determine the extent to which they provide primarily a skilled level of
                   care or rehabilitation. Survey results indicate that nearly all of these
                   nursing homes provide primarily skilled care or rehabilitation.
                   Consequently, we concluded that nearly all $11.9 million in DME
                   payments for Medicare beneficiaries in these nursing homes was
                   inappropriately allowed. As with stays in SNFs and dually certified
                   SNF/NFs, the inappropriately allowed DME was nearly always billed
                   identifying the place of service as the beneficiary’s home (97 percent),
                   mostly for wheelchairs and oxygen (72 percent), and made up mostly of
                   rentals (78 percent).
                   CMS and States do not maintain a primary level of care designation
                   for nursing homes that could facilitate accurate claim submission
                   by suppliers and proper claim adjudication by payment contractors.
                   When suppliers prepare DME claims or claims are processed for
                   payment by Medicare Administrative Contractors (MAC), it is
                   important that the appropriate place of service code be utilized. If a
                   beneficiary resides in a NF or distinct part nursing home that does not
                   provide primarily a skilled level of care or rehabilitation, the supplier
                   should identify “home” as the place of service. However, suppliers that
                   code place of service and MACs that adjudicate claims do not have ready
                   access to the primary level of care status of NFs and distinct part
                   nursing homes unless this information is provided directly by these
                   facilities. They lack access to this information because CMS or States
                   did not make these determinations and maintain results in an
                   accessible database. However, CMS reported that it does not maintain
                   information regarding primary level of care for NFs and distinct parts
                   and indicated that States have the responsibility for maintaining this
                   information. We contacted all State agencies in an attempt to
                   determine the primary level of care provided by NFs and distinct part
                   nursing homes. State agency representatives in 21 States reported that
                   nursing homes that are licensed in their States must provide primarily
                   skilled care or rehabilitation. Of these 21 States, 13 have statutes that
                   specifically require this level of care for State licensure. In the
                   remaining 29 States, there may be nursing homes that do not provide

 OEI-06-07-00100   PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                         ii
E X E C U T I V E                       S U          M M A R Y


                   primarily skilled care or rehabilitation or include a distinct part that
                   does not provide primarily skilled care or rehabilitation.


                   RECOMMENDATIONS
                   When setting DME payment policy, Congress recognized the
                   responsibility of institutions to meet patients’ medical needs, regardless
                   of the primary payer for the stays (i.e., Medicare, Medicaid, or private
                   resources). Consequently, each nursing home must provide DME as an
                   integral part of its basic daily rate unless it is not providing primarily
                   skilled care or rehabilitation. Yet, very few nursing homes provide care
                   lower than skilled. Although payment contractors routinely deny DME
                   payment for claims submitted with a nursing home place of service
                   designation, an incorrect place of service designation (i.e., home) results
                   in inappropriate payment. Past OIG studies have highlighted this
                   issue; however, payment controls are still insufficient to stop
                   inappropriate DME payments.

                   Given the extent of inappropriate DME payments, we recommend that
                   CMS:

                   Use electronic resident assessment data contained in the Minimum Data
                   Set (MDS) to establish a routine process to periodically (e.g., annually)
                   generate a list of non-Part A beneficiary stays in nursing homes that
                   provide primarily skilled care or rehabilitation. CMS should then direct
                   contractors to identify and recover inappropriate DME payments.
                   Further, CMS should direct contractors to identify suppliers that
                   repeatedly submit incorrect place of service on DME claims and forward
                   such information to the OIG Office of Investigations.

                   Implement a process or processes to identify patients entering nursing
                   homes with rented DME. Nursing homes could use this information to
                   alert suppliers of the beneficiary’s change of address.

                   Determine which NFs and distinct part nursing homes provide primarily
                   skilled care, thus not qualifying as a beneficiary’s home for DME payment
                   purposes. State Medicaid agencies and CMS do not evaluate and
                   maintain this information. At a minimum, CMS could require State
                   Medicaid agencies to make the determination using the available CMS
                   administrative criteria. This designation should then be available to
                   claims processors, nursing homes, and suppliers.




 OEI-06-07-00100   PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                         iii
E X E C U T I V E                       S U          M M A R Y


                   Direct contractors to recoup the inappropriate payments identified in this
                   report. We will forward claim-specific information to CMS under
                   separate cover.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with our recommendations to establish a routine
                   process to periodically identify non-Part A stays using MDS and to
                   recover inappropriate payments identified in this study. The draft
                   report also recommended that CMS (1) expand the resident assessment
                   process to identify whether the patient entered the nursing home with
                   DME and (2) use the Online Survey Certification and Reporting system
                   to determine and report which NFs and distinct part nursing homes
                   qualify as beneficiary homes for DME payment purposes. Although
                   agreeing with the underlying objectives of these two recommendations,
                   CMS suggesed alternative approaches using claims processing edits to
                   address them. In this final report, we defer to CMS on the appropriate
                   methods to use to address these recommendations. However, we ask
                   that CMS provide specific information on these alternative approaches
                   in its final management decision.

                   For the full text of CMS’s comments, see Appendix D.




 OEI-06-07-00100   PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                         iv
Δ   T A B L E              O F            C O N T E N T S



        EXECUTIVE SUMMARY .................................... i



        INTRODUCTION............................................ 1



        F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 

                Medicare Part B inappropriately allowed $30 million in 2006 

                for DME provided during non-Part A stays in Medicare-certified 

                SNFs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 


                Nearly all of the additional $11.9 million that Medicare allowed 

                for DME provided during non-Part A stays in Medicaid-certified 

                NFs and distinct part nursing homes was inappropriate . . . . . . . . . 15 


                CMS and States do not maintain a primary level of care 

                designation for nursing homes that could facilitate accurate claim

                submission by suppliers and proper claim adjudication by payment 

                contractors. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 



        R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 

                   Agency Comments and Office of Inspector General Response . . . . 18 



        A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 

                A: Skilled Nursing Facility Definition . . . . . . . . . . . . . . . . . . . . . . . 19 


                B: Durable Medical Equipment Billing Codes . . . . . . . . . . . . . . . . . 23 


                C: Defining Primary Level of Care . . . . . . . . . . . . . . . . . . . . . . . . . . 24 


                D: Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26 



        A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29 

I N T R O D        U C T            I O N
Δ    I N T R O D U C T I O N


                    OBJECTIVE
                    To determine the extent of inappropriate Medicare Part B payments for
                    durable medical equipment (DME) provided to nursing home residents
                    during non-Part A stays in 2006.


                    BACKGROUND
                    Medicare and Medicaid Programs
                    Nursing homes offer daily living assistance to elderly and disabled
                    individuals who are either physically or mentally unable to live
                    independently. Nursing home patients receive a wide array of services
                    ranging from medical treatment to meals and from skilled to custodial
                    care. Of the available public programs that pay for nursing home care,
                    Medicare and Medicaid represent the largest.
                    Medicare. Medicare, a Federal health insurance program, covers most
                    people 65 years or older, people under age 65 with certain disabilities,
                    and people of any age diagnosed with end-stage renal disease. It
                    provides a wide range of benefits from institutional care (e.g., nursing
                    home stays) to medical products and supplies (e.g., wheelchairs).
                    Medicare is administered by the Centers for Medicare & Medicaid
                    Services (CMS), which contracts with entities called Medicare
                    Administrative Contractors (MAC) to process and pay claims for covered
                    services. Medicare-covered services most frequently fall under Parts A
                    and B.

                    •	     Part A (hospital insurance) helps cover skilled or rehabilitative care
                           during beneficiary stays in skilled nursing facilities (SNF); these
                           stays are called “Part A stays.” Medicare Part A 1 was the primary
                           payer for 13 percent of the nursing home residents in 2006. 2 During
                           a Part A stay in a SNF, Medicare Part A pays for the beneficiary’s
                           services in the facility using a consolidated daily rate. This daily
                           rate covers many routine services provided by SNFs, including room

                    1 Medicare Part A pays for up to 100 days in a SNF benefit period, also known as spell of
                    illness, if a beneficiary meets certain conditions, such as a prior hospitalization. The SNF
                    benefit period begins the day a beneficiary enters the SNF and ends when the beneficiary
                    has not received any subsequent hospital or SNF care for 60 consecutive days.
                    2 C. Harrington, H. Carrillo, and B. W. Blank, “Nursing, Facilities, Staffing, Patients, and
                    Facility Deficiencies, 2000 Through 2006,” p. 18. Department of Social and Behavioral
                    Sciences, University of California, San Francisco. Available online at
                    http://www.nccnhr.org/uploads/PartI-PagesfromHarringtonOSCARcomplete2006.pdf.
                    Accessed in March 2008.



 OEI-06-07-00100    PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                          1
I N T R O D        U C T            I O N


                           and board, skilled care, and rehabilitative care. Examples of skilled
                           care include changing sterile dressings and administering prescribed
                           medications; examples of rehabilitative care include physical,
                           speech, or occupational therapies.

                           When a beneficiary exhausts the 100 days of care allowed under the
                           Part A benefit (or did not otherwise qualify for a SNF stay) and
                           continues to reside in the SNF, the subsequent days then constitute
                           a “non-Part A stay.” During a non-Part A stay, Medicare no longer
                           pays for the stay; however, Part B may pay for therapy and supplies
                           previously included in the daily rate paid to the SNF.
                    •	     Part B (medical insurance) helps cover a wide range of medical
                           services and supplies. These services include physician services and
                           medical equipment and supplies, including DME.

                           Durable Medical Equipment. DME is generally defined as
                           equipment that can withstand repeated use, serves primarily a
                           medical purpose, is not generally useful to a person in the absence of
                           an illness, and is appropriate for use in a resident’s home. 3
                           Examples of DME include oxygen and respiratory equipment and
                           supplies, wheelchairs, hospital beds, walkers, commodes, and blood
                           glucose monitors. In most instances, Medicare will pay for rented or
                           purchased DME, 4 as well as cover repairs of purchased equipment
                           and necessary related supplies (e.g., glucose test strips and
                           oxygen). 5
                           In 2006, Medicare Part B benefits totaled $166 billion for 40 million
                           beneficiaries. 6 Of this amount, approximately $11.7 billion was for
                           DME.

                           Part B Supplier Billing and Payment. Medicare-enrolled suppliers
                           provide DME to Medicare beneficiaries and then submit claims to
                           one of four regional MACs, called DME MACs. Section 1842(s) of
                           the Act authorizes a fee schedule for many Part B services, including


                    3 CMS, “Medicare Benefit Policy Manual” (MBPM). Available online at Medicare Benefit
                    Policy Manual, Chapter 15, § 110.1. Accessed in June 2008.
                    4 Social Security Act (the Act), § 1861(n). See also 42 CFR 410.38 (a).
                    5 CMS, “Medicare Claims Processing Manual.” Available online at Medicare Claims
                    Processing Manual, Chapter 20, § 10.2. Accessed in June 2008.
                    6 CMS, “Brief Summaries of Medicare & Medicaid,” November 1, 2007. Available online at
                    http://www.cms.hhs.gov/MedicareProgramRatesStats/downloads/MedicareMedicaidSummar
                    ies2007.pdf. Accessed in June 2008.



 OEI-06-07-00100    PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                          2
I N T R O D 
U C T                 I O N


                          certain equipment and supplies, which Medicare contractors use to
                          reimburse claims. 7 Generally, Medicare pays 80 percent of the
                          allowed amount, and the beneficiary is responsible for the remaining
                          20 percent. For reimbursement purposes, suppliers must identify
                          the DME item for which they are billing using a specific code from
                          the Healthcare Common Procedure Coding System (HCPCS).
                          Home Use Provision. In addition to medical necessity and coding
                          accuracy requirements, Medicare payment determinations for DME
                          provided to residents of nursing homes are driven by whether the
                          nursing home provides primarily skilled care or rehabilitation. 8
                          (See Appendix A.) If the nursing home provides primarily skilled
                          care or rehabilitation, DME is not covered. This noncoverage stems
                          from the legal requirement that DME be used in a beneficiary’s
                          home or an institution that can be considered a home. Section
                          1861(n) of the Act states that any nursing home meeting the basic
                          definition of a SNF in § 1819(a)(1) of the Act may not be considered
                          a patient’s home for this purpose. Thus, only when a nursing home
                          provides primarily a nonskilled level of care and few rehabilitation
                          services can it be considered a beneficiary’s home and qualify for
                          DME payment.

                          Exceptions to Home Use Provision. Under two exceptions, Medicare
                          pays for DME provided in nursing homes that do not qualify as a
                          beneficiary’s home:

                          (1) 	 The DME was initially provided to the beneficiary at his/her
                                home prior to admittance to a nursing home. If this occurs, the
                                beneficiary may have rented the DME during the month in
                                which he/she enters a nursing home. Medicare will pay for the
                                DME rental for the remainder of the monthly rental period
                                that overlaps the nursing home admission. DME MACs will
                                direct the billing supplier to submit its bill indicating home as
                                the place of service. 9


                   7 Fee schedule implemented on January 1, 2002, and updated annually.
                   8 CMS, Medicare Learning Network Matters Article #SE0745, October 25, 2007. Available
                   online at
                   http://www.cms.hhs.gov/MLNMattersArticles/2007MMAN/itemdetail.asp?filterType=none&
                   filterByDID=99&sortByDID=8&sortOrder=ascending&itemID=CMS1204646&intNumPerP
                   age=10. Accessed on May 6, 2008.
                   9 CMS, MBPM, chapter 15 § 110.5. Available online at
                   http://www.cms.hhs.gov/manuals/Downloads/bp102c15.pdf. Accessed in June 2008.



 OEI-06-07-00100   PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                         3
I N T R O D        U C T            I O N


                           (2) 	 The DME was provided to the beneficiary in anticipation of a
                                 discharge from a nursing home to his/her home. In this
                                 instance, Medicare will allow the DME payment for the
                                 beneficiary up to 2 days prior to a nursing home discharge
                                 when the DME is intended for home use. DME MACs will
                                 direct the billing supplier to use the discharge date for the
                                 service date and indicate home as the place of service.
                    Medicaid. Medicaid was the primary payer for 65 percent of nursing
                    home stays during 2006. 10 All of these stays were non-Part A stays
                    because Medicare did not pay for them. Unlike Medicare, Medicaid is a
                    joint State-Federal program administered by the States. Within broad
                    Federal guidelines, States establish their own eligibility standards
                    encompassing Federal requirements and available options; thus, every
                    State operates its Medicaid program differently. However, all State
                    Medicaid programs include routine DME as a service covered under the
                    facility daily rate. 11 12 To ensure that Medicaid recipients with
                    Medicare eligibility receive Part B benefits during their nursing facility
                    (NF) stays and to facilitate payment by Part B, State Medicaid
                    programs routinely pay Part B premiums for qualified beneficiaries.

                    Related Payment Legislation
                    Congress has recognized the responsibility of nursing homes to meet the
                    medical needs of patients, regardless of the primary payer of the stay
                    (i.e., Medicare, Medicaid, or private resources). Statutes such as the
                    Omnibus Budget Reconciliation Act of 1987 (OBRA 1987) laid the
                    foundation for identifying needed patient care through resident
                    assessments. 13 The OBRA 1987 further required that nursing homes
                    provide the necessary care to assist residents in attaining their highest
                    practicable level of physical, mental, and psychosocial well-being.
                    Congress also enacted legislation such as the Balanced Budget Act of
                    1997 (BBA) 14 and the Medicare, Medicaid, and SCHIP Benefits




                    10 C. Harrington, et al., loc. cit. 

                    11 The Henry J. Kaiser Family Foundation, “Medicaid Benefits: Online Database.” 

                    Available online at 

                    http://www.kff.org/medicaid/benefits/index.jsp?CFID=32790568&CFTOKEN=15412220. 

                    Accessed in June 2008. 

                    12 42 CFR § 488.301. 

                    13 P.L. No. 100-203. 

                    14 P.L. No. 105-33. 





 OEI-06-07-00100    PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                          4
I N T R O D        U C T            I O N


                    Improvement and Protection Act of 2000 (BIPA) 15 to further define
                    Medicare payment criteria for nursing homes.

                    The BBA established a prospective payment system for Part A stays
                    and required nursing homes to arrange for and consolidate into a single
                    Medicare bill the Part B services that are needed by a resident during
                    his or her nursing home stay. 16 Prior to the BBA, suppliers and
                    providers of Part B services for nursing home residents (e.g., physical
                    therapists) billed Medicare directly for their services. Implementation
                    of consolidated billing first occurred only for Part A stays. In 2000,
                    before the BBA was implemented for non-Part A stays, Congress
                    enacted the BIPA. The BIPA maintained consolidated billing for Part A
                    stays and therapy services but repealed consolidated billing
                    requirements for non-Part A stays. Therefore, claims for beneficiaries
                    during non-Part A stays continue to be individually submitted by
                    suppliers and providers.
                    Mandate for the Office of Inspector General To Monitor Part B Payments
                    In repealing the BBA’s consolidated billing provisions for non-Part A
                    nursing home stays, Congress anticipated the need to monitor Medicare
                    Part B payments during these stays. In section 313 of the BIPA,
                    Congress specifically directed the Office of Inspector General (OIG) to
                    perform such monitoring. This DME evaluation revisits the study
                    entitled “Durable Medical Equipment Payments in Nursing Homes”
                    (OEI-06-92-00862), in which OIG identified inappropriate payments of
                    $35 million for DME provided during nursing home stays in 1992, much
                    of which occurred during non-Part A stays. Several additional studies
                    will address other, previously identified, vulnerable Part B payment
                    areas (e.g., enteral nutrition therapy and psychotherapy).
                    Primary Level of Care and Certification of Nursing Homes
                    The Act established minimum health and safety standards 17 that must
                    be met by suppliers and providers of services participating in the
                    Medicare and Medicaid programs. To receive payment under either of
                    these programs, nursing homes must comply with the standards set
                    forth in 42 CFR pt. 483, subpart B. CMS has oversight over both



                    15 P.L. No. 106-554. 

                    16 BBA, § 4432. 

                    17 The Act, §§ 1819 and 1919, establish requirements for nursing homes to participate in 

                    Medicare and Medicaid. See also 42 CFR §§ 483 and 488.



 OEI-06-07-00100    PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                          5
I N T R O D        U C T            I O N


                    programs but contracts with States to perform surveys that ensure
                    nursing home compliance.

                    In 2006, 3.2 million individuals received nursing home care in
                    16,121 nursing homes certified for Medicare or Medicaid. 18 Of these
                    nursing homes, States surveyed 15,294 in 2006. Based on specific
                    survey criteria, a nursing home may be certified as a Medicare SNF, a
                    Medicaid NF, a dually certified SNF/NF, or a distinct part SNF or NF.
                    However, defining a nursing home’s primary level of care is not a
                    specific component of certification surveys. Although the certification of
                    a SNF or dually certified SNF/NF for Medicare clearly indicates that a
                    nursing home provides primarily a skilled level of care or rehabilitation,
                    certification as a NF may not be used as the sole indicator of the
                    primary level of care provided.
                    Medicare skilled nursing facility. Both SNF and dually certified SNF/NF
                    certification criteria require sufficiently high nurse staffing levels that
                    such nursing homes are clearly providing primarily skilled care or
                    rehabilitation. (See Appendix A for CMS policy defining DME coverage
                    in nursing homes.) Dual certification as a SNF/NF results in the same
                    outcome: the facility provides primarily skilled care. Between 2002 and
                    2006, the number of SNFs decreased by just over 18 percent from 1,058
                    to 864, accounting for 5 percent of certified nursing homes. During the
                    same time period, the number of dually certified SNF/NFs increased by
                    2 percent, from 14,013 to 14,298, and accounted for nearly 89 percent of
                    certified nursing homes. 19
                    Medicaid nursing facility. Between 2002 and 2006, the number of NFs
                    decreased by nearly 50 percent, from 1,913 to only 959 (5 percent of
                    certified nursing homes). 20 Medicaid certification requirements for NFs
                    are virtually the same as those for Medicare certification of SNFs. For
                    payment purposes, DME MAC policies state that billing for DME for a
                    patient in a SNF or a NF will be denied, in effect taking the stand that
                    both SNFs and NFs provide skilled care or rehabilitative services.
                    However, this payment policy does not take into account that, unlike
                    Medicare certification, Medicaid certification of a NF can provide for a
                    nonskilled level of care. This level of care would allow a NF to be
                    considered as a beneficiary’s home for DME coverage purposes. Thus,


                    18 CMS, “Nursing Home Data Compendium,” 2007 Edition. 

                    19 Ibid. 

                    20 Ibid. 





 OEI-06-07-00100    PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                          6
I N T R O D        U C T            I O N


                    as a certification class, NFs cannot be assumed to be providing
                    primarily skilled care or rehabilitation for DME payment purposes.
                    CMS or States would need to evaluate each NF using specific
                    administrative criteria to determine whether the NF provides primarily
                    skilled care or a level of care below skilled. If the latter, the NF could be
                    considered a home. 21 Only for beneficiaries in these facilities should
                    DME suppliers indicate home as the place of service on submitted
                    claims.
                    Distinct part nursing home. Generally, CMS and States evaluate a nursing
                    home’s certification as a single unit, rather than by separately
                    evaluating and classifying individual areas or beds within the
                    institution. However, some States allow a nursing home to designate a
                    particular portion of its nursing home, known as a “distinct part,”
                    separately from the rest of the nursing home. 22 Medicare and Medicaid
                    regulations define a distinct part as a separate, physically identifiable
                    unit consisting of all the beds in a particular building, floor, wing, or
                    ward. 23 Using the CMS Online Survey Certification and Reporting
                    system (OSCAR), we identified 2,725 distinct part nursing homes. 24
                    However, OSCAR did not identify whether the distinct part was a SNF
                    or a NF, a critical designation for determining DME payment. As with
                    a SNF, a distinct part SNF providing primarily skilled care or
                    rehabilitation would not have DME coverage. 25 However, if the
                    remainder of that nursing home provides a nonskilled level of care, it
                    could have DME coverage. The opposite situation would allow DME
                    coverage for a beneficiary residing in a distinct part NF not providing
                    primarily a skilled level of care, but not in the remainder of the nursing
                    home providing primarily skilled or rehabilitative care.




                    21 Administrative criteria to identify NFs or distinct part nursing homes that meet the 

                    basic SNF definition may be used by State agencies conducting certification surveys. These 

                    criteria appear in CMS’s “State Operations Manual” (SOM), chapter 2, § 2166. Available 

                    online at http://www.cms.hhs.gov/manuals/downloads/som107c02.pdf. Accessed in June 

                    2008. 

                    22 CMS, SOM, chapter 2 § 2762B(4). Available online at 

                    http://www.cms.hhs.gov/manuals/downloads/som107c02.pdf. Accessed in June 2008. 

                    23 42 CFR § 483.5(b). 

                    24 Data extracted from OSCAR by OIG on April 1, 2007. 

                    25 CMS, MBPM. Available online at 

                    http://www.cms.hhs.gov/manuals/Downloads/bp102c15.pdf. Accessed in June 2008. 




 OEI-06-07-00100    PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                          7
I N T R O D        U C T            I O N


                    Suppliers and Place of Service Coding
                    Suppliers must designate the physical location of the beneficiary, called
                    place of service, on submitted claims. For billing purposes, CMS utilizes
                    place of service codes ranging from 01 through 99. A DME claim
                    submitted with a place of service code for a SNF or NF will be denied. 26
                    An electronic claims-processing system edit adjudicates each claim and
                    generates a denial when a SNF or NF place of service has been coded.
                    However, if the NF provides a level of care below skilled or
                    rehabilitative, it can be considered the beneficiary’s home for billing
                    purposes. In such situations, the supplier should appropriately
                    designate home, not a NF, as the place of service on the claim.
                    However, it becomes more difficult for a supplier to accurately identify
                    the place of service for a beneficiary who moves from his or her home to
                    a nursing home. This is particularly problematic for payment purposes
                    when the beneficiary has rented DME prior to the nursing home
                    admission.
                    Following the monthly rental period during which the beneficiary
                    moved to a nursing home that may not be considered his or her home,
                    the DME claim should show the actual place of service as a SNF or NF,
                    which would result in a denial of payment by the DME MAC. If the
                    patient resides in a NF or distinct part nursing home that may be
                    considered a beneficiary’s home, the claim may still indicate home as
                    the place of service. Yet, CMS, DME MACs, and States do not inform
                    suppliers that a beneficiary has relocated to a nursing home. CMS
                    policies require that suppliers submit accurate claims, but do not
                    provide guidance on how or how frequently they must ensure the
                    accuracy of the beneficiary’s place of service. Ultimately, suppliers
                    depend on the beneficiary or his/her responsible parties to tell them
                    when a beneficiary moves into a nursing home. There is no way for
                    suppliers to ensure that the beneficiaries do so. Nor do CMS or DME
                    MACs have the means to notify a nursing home when a beneficiary has
                    rental DME at the time of admittance; claims processing systems
                    currently are inadequate for such a purpose. Further, nursing homes
                    have not been directed by CMS to obtain this information from
                    beneficiaries at the time of admittance.



                    26 Noridian, DME MAC, “Supplier Manual,” chapter 5. Available online at
                    https://www.noridianmedicare.com/dme/news/manual/chapter5.html#inpatient. Accessed in
                    February 2008.



 OEI-06-07-00100    PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                          8
I N T R O D        U C T            I O N 




                    METHODOLOGY
                    Scope
                    This study identifies inappropriately allowed Part B payments for DME
                    during non-Part A nursing home stays in 2006. A non-Part A nursing
                    home stay is any Medicare beneficiary’s nursing home stay which is not
                    paid for under the Medicare Part A SNF benefit. If a beneficiary’s stay
                    started under the Part A SNF benefit and continued after exhausting
                    this benefit, only DME delivered during the latter portion of the stay is
                    considered.

                    Identification of DME During a Nursing Home Stay
                    We utilized several databases obtained from CMS to identify Part B
                    payments for DME during non-Part A nursing home stays. These
                    databases included the Minimum Data Set (MDS), OSCAR, the
                    Enrollment Database (EDB), and National Claims History (NCH).
                    Minimum Data Set. We used the MDS to identify the nursing home
                    residents, related nursing homes, and nursing home stays. The MDS, a
                    component of the resident assessment instrument, includes information
                    about each resident’s health, physical functioning, mental status, and
                    general well-being. 27 However, assessments do not capture whether a
                    beneficiary is renting DME at the time of nursing home admission.
                    Resident assessments are reported electronically by each certified
                    nursing home for each person upon admission and are updated at least
                    quarterly. 28 The MDS includes nursing home admission and discharge
                    dates. States receive assessments from nursing homes and transmit the
                    data to CMS. Using the MDS data, we identified all assessed residents
                    and their Social Security numbers (SSN). To determine stay dates, we
                    extracted all nursing home admission and discharge dates for each
                    resident.

                    We used assessment dates as proxies for missing admission or discharge
                    dates according to the following assumptions:

                    •	     If the resident was in the nursing home on January 1, 2006
                           (determined from subsequent assessments that were conducted by
                           the nursing homes), we used the date of the first assessment
                           conducted in 2005 as the admission date.



                    27 OBRA 1987. 

                    28 More frequent assessments are required for stays paid under the Part A SNF benefit. 





 OEI-06-07-00100    PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                          9
I N T R O D        U C T            I O N


                    •	     In the case of a missing discharge date, we defined the date of the
                           last assessment (received through March 2007) as the date of
                           discharge.
                    OSCAR. To obtain information about the nursing home (e.g., facility
                    name, address, number of beds, and SNF and NF certification status),
                    we linked the MDS facility identification number with the facility
                    number maintained in the OSCAR. The OSCAR contains survey results
                    from certification and complaint surveys.
                    Enrollment Database. We used the EDB to identify Medicare
                    beneficiaries. This database includes beneficiary-level data (i.e., name,
                    SSN, and Medicare Health Insurance Claim Number (HICN)). Using
                    this database, we crosswalked SSNs contained in the MDS file to SSNs
                    in the EDB to identify Medicare beneficiaries and their associated
                    HICNs. We excluded beneficiaries having no matching SSN from
                    further analysis.
                    National Claims History. We identified DME claims and payments using
                    the NCH. We used the HICNs from the EDB to crosswalk to HICNs in
                    the NCH to identify all DME claims billed and allowed for Medicare
                    beneficiaries during the nursing home stays previously identified using
                    the MDS. We then dropped all DME billed for beneficiaries during
                    Part A paid nursing home or inpatient hospital stays. 29 (See
                    Appendix B for a list of the DME HCPCS codes utilized for this study.)

                    Finally, we excluded DME during exception time periods. We identified
                    and excluded DME claims occurring during the two allowed exception
                    time periods—rental payment for the month overlapping any admission
                    to a nursing home from home and DME provided within 2 days of a
                    beneficiary’s discharge from the nursing home. To be conservative, we
                    determined that claims with nursing home admissions between the
                    “from” and “through” dates for DME met the exception period,
                    regardless of claim length. Additionally, if the claim “through” date was
                    the same as the discharge date from the nursing home, we determined
                    that the claim met the exception period. Medicare policy stipulates that
                    DME claims for items provided 2 or less days prior to a nursing home
                    discharge to home are appropriate if the claim date and the discharge
                    date are the same. We also took a conservative approach to possible

                    29 OIG’s Office of Audit Services routinely conducts audits relating to the issue of
                    inappropriate Part B payments occurring during Part A stays. As such, we excluded these
                    from our review.



 OEI-06-07-00100    PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                          10
I N T R O D        U C T            I O N


                    discharge locations by defining all discharges as home discharges and
                    excluding these claims from analysis.

                    For the resulting identified 2006 DME claims allowed for Medicare
                    beneficiaries during nursing home stays, we used OSCAR data to
                    determine possible trends across the inappropriately allowed DME.
                    Data utilized for trends included State, profit/nonprofit status, and the
                    number of beds in nursing homes.
                    Sampling To Verify Stay Date Accuracy and To Identify Level of Care for
                    NFs and Distinct Part Nursing Homes
                    To test the validity of the identified stay dates using the MDS and to
                    identify primary level of care, we randomly selected a sample of
                    300 beneficiaries from the 299,851 beneficiaries identified as having
                    DME during non-Part A nursing home stays. Cumulatively, these
                    300 beneficiaries had 378 nursing home stays, received medical care in
                    311 different nursing homes, 30 and had 2,001 DME claims totaling
                    approximately $280,896 allowed and $220,242 reimbursed by Medicare.
                    The remaining dollars were paid by or on behalf of beneficiaries by third
                    parties (i.e., Medicaid, supplemental insurance, or private resources).
                    Using this sample, we surveyed the associated NFs and distinct part
                    nursing homes to determine the proportion of each actually providing
                    primarily a skilled level of care. This sample allowed us to project to the
                    universe of DME provided during a NF or distinct part nursing home
                    stay.
                    Stay date accuracy. We verified stay dates from the MDS by requesting
                    admission and discharge date documentation directly from the nursing
                    homes. The 378 stay dates determined from the MDS were nearly
                    always accurate, with only 5 percent (21) of the reviewed stays having
                    wrong or incomplete information.
                    Level of care in NFs and distinct part nursing homes. A NF or distinct part
                    nursing home may qualify as a beneficiary’s home if it provides a level
                    of care less than skilled. CMS reported that it does not maintain
                    information regarding primary level of care for NFs or distinct parts
                    and indicated that States have the responsibility for maintaining this
                    information. We subsequently contacted all State agencies in an
                    attempt to determine the primary level of care provided by NFs.



                    30 Of the sampled nursing homes, 216 were dually certified SNF/NFs, 9 were certified as
                    SNFs, 21 as NFs, and 65 as having a distinct part.



 OEI-06-07-00100    PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                          11
I N T R O D        U C T            I O N


                    To determine the degree to which NFs and distinct part nursing homes
                    provide primarily skilled care, we used OSCAR to identify the nursing
                    homes in the previously described sample of 311 nursing homes that
                    were NFs or distinct part nursing homes. There were 86 such nursing
                    homes (21 NFs and 65 distinct part nursing homes). We asked nursing
                    home administrators to respond to questions directly related to the
                    administrative requirements for defining a skilled level of care. 31 (See
                    Appendix C.) We received responses from 78 of the 86 nursing homes
                    (91 percent).

                    Of the 14 responding NFs, 12 (86 percent) indicated that they provide
                    primarily a skilled level of care; 63 of 64 (98 percent) responding distinct
                    part nursing homes indicated that they provide primarily a skilled level
                    of care. Based on this sample, NFs and distinct part nursing homes
                    rarely (0.04 percent of the time) qualify as a beneficiary’s home for DME
                    payment purposes. Using this point estimate and sample statistics, we
                    projected the dollars paid inappropriately to the universe of payments
                    for DME during these stays.

                    Reporting of Inappropriate DME Payments
                    For the findings of this report, we calculated inappropriately allowed
                    DME using all of the 2006 DME claims submitted for Medicare
                    beneficiaries during non-Part A nursing home stays. Specifically, the
                    report findings are not adjusted to account for the small amount of
                    errors resulting from our use of the MDS to determine nursing home
                    stay dates. As mentioned previously, the results of our verification for a
                    sample of stay dates during which DME was provided indicates that
                    inaccuracies in the MDS stay date determinations rarely resulted in our
                    misclassification of a DME claim during a nursing home stay as
                    inappropriately allowed.

                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency (now
                    Council of the Inspectors General on Integrity and Efficiency).




                    31 CMS, SOM, chapter 2, § 2166; four specific criteria must be met fully to be considered
                    engaged in providing primarily skilled care.



 OEI-06-07-00100    PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                          12
F   I N D I N G        S
Δ       F I N D I N G S

        Medicare Part B inappropriately allowed             Suppliers received payments
          $30 million in 2006 for DME provided              totaling $30,485,842 for the
                                                            309,626 DME claims allowed for
                     during non-Part A stays in
                                                            Medicare beneficiaries during
                        Medicare-certified SNFs
                                                            non-Part A stays in nursing homes
                      certified as SNFs or dually certified as SNF/NFs. These claims were
                      spread across 11,702 nursing homes. Since these nursing homes were
                      providing primarily skilled care or rehabilitation, they could not be
                      considered the beneficiaries’ homes, a prerequisite for DME coverage.
                      Medicare paid 77 percent ($23.4 million) of the allowed amount; the
                      remaining 23 percent ($7.1 million) was paid by or on behalf of
                      beneficiaries (i.e., Medicaid, supplemental insurance, or private
                      resources).
                      For 98 percent of the inappropriately allowed claims, suppliers incorrectly
                      indicated that the DME provided during nursing home stays was for use in
                      beneficiaries’ homes
                      For other claims, the places of service indicated by the suppliers were
                      custodial homes (1.1 percent) or other places (1.2 percent), such as assisted
                      living (0.8 percent), facilities for mentally retarded persons (0.3 percent),
                      group homes (0.02 percent), and homeless shelters (0.01 percent).
                      Wheelchairs and oxygen accounted for 72 percent ($22 million) of the
                      inappropriately allowed DME payments
                      The category of wheelchairs and related accessories represents the highest
                      expense for inappropriately allowed DME (37 percent). (See Table 1 on
                      the following page.) The category of oxygen and respiratory equipment
                      and supplies accounts for the second-highest expense (35 percent).
                      Rentals accounted for 76 percent of the total inappropriately allowed DME
                      payments
                      Additionally, oxygen, wheelchairs, and their related components accounted
                      for $17.8 million (78 percent) of the $22.9 million inappropriately allowed
                      for rentals and 191,805 of the 231,606 related claims. Hospital beds (and
                      their related accessories) and decubitus care equipment accounted for 12
                      percent and 8 percent of the inappropriately allowed rental amount,
                      respectively. In nearly all cases, an ongoing rental had been established
                      prior to the nursing home stay. The resulting inappropriately paid
                      amount occurred because the supplier failed to identify on submitted
                      claims that the beneficiary had relocated to a nursing home and/or failed
                      to change subsequent billing using the correct place of service code. We
                      did not determine whether the beneficiary had provided the supplier with
                      the information about the move to a nursing home.
    OEI-06-07-00100   PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                            13
F   I N D I N G              S          





                          Table 1: Inappropriately Allowed Durable Medical Equipment
                          Payments by Category
                                                                                                                                                    Percentage of
                                                                                                               Total Amount                               Amount
                          Category                                                                           Inappropriately                      Inappropriately
                                                                                                                     Allowed                             Allowed*
                                                                                                                                                     ($30,485,842)
                          Wheelchairs and related accessories                                                      $11,395,901                                37%
                          Oxygen and respiratory equipment and supplies                                            $10,562,263                                35%
                          Hospital beds and related accessories                                                     $3,910,113                                13%
                          Decubitus care equipment                                                                  $2,122,838                                 7%
                          Seat/patient lifts                                                                          $828,853                                 3%
                          Other DME                                                                                   $517,306                                 2%
                          Transcutaneous and/or neuromuscular electrical                                              $486,851                                 2%
                          nerve stimulators
                          Walkers                                                                                       $411,843                                 1%
                          Bath/commodes                                                                                 $249,875                                 1%
                          Source: OIG analysis of DME payments in non-Part A stays during 2006.
                          *Percentages do not equal 100 percent because of rounding.



                           Medicare allowed more than $1 million for each of seven separate
                           HCPCS codes. (See Table 2.) Together, these items account for
                           73 percent ($22.2 million) of the total inappropriately allowed amount.
                           The HCPCS E1390 accounts for the single highest inappropriately paid
                           code, representing nearly 26 percent of the total inappropriately allowed
                           amount. As indicated, most inappropriately allowed DME claims were
                           made for routine medical equipment (e.g., oxygen, beds, and
                           wheelchairs) that nursing homes could provide to their patients as part
                           of their daily rate.


             Table 2: HCPCS With More Than $1 Million Inappropriately Allowed
                                                                                                                                                    Percentage of
                                                                                                           Total Amount                                   Amount
             HCPCS        Item Description                                                               Inappropriately                          Inappropriately
                                                                                                                 Allowed                                  Allowed
                                                                                                                                                     ($30,485,842)
             E1390        Oxygen concentrator                                                                    $7,816,906                                   26%
             E0260        Hospital bed, semielectric                                                             $3,536,488                                   12%
             K0011        Standard weight-frame motorized/power                                                  $3,184,235                                   10%
                          wheelchair
             K0001        Standard wheelchair                                                                    $2,191,881                                      7%
             K0004        Lightweight high-strength wheelchair                                                   $2,112,417                                      7%
             E0277        Power pressure-reducing air mattress                                                   $1,773,773                                      6%
             K0003        Lightweight wheelchair                                                                 $1,542,635                                      5%
             Source: OIG analysis of DME payments in non-Part A stays during 2006.




    OEI-06-07-00100        PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                                 14
F   I N D I N G 
S


                      The average inappropriate allowed amount associated with nursing homes was
                      $2,605 with a median of $1,456. Of the 11,702 nursing homes associated
                      with beneficiaries having inappropriate DME payments, 3,637
                      (31 percent) exceeded the average. Further, 179 of these nursing homes
                      were three or more standard deviations above the average, with the two
                      highest totaling $102,875 and $73,227.
                      The average inappropriate allowed amount for suppliers was $2,712 with a
                      median of $906. Of the 11,243 suppliers associated with inappropriate
                      DME payments, 2,873 (26 percent) exceeded the average. Further,
                      137 of these suppliers were three or more standard deviations above the
                      average, with the two highest totaling $248,340 and $200,382.

                      We analyzed the inappropriate allowed DME payments across several
                      variables (e.g., geographic location, nursing home characteristics) and
                      found no correlations between high payments and these variables. For
                      example, 42 percent of the inappropriately allowed DME payments were
                      made to suppliers in those States with a similar proportion of certified
                      nursing home beds—California, Florida, New York, Ohio, Pennsylvania,
                      and Texas.



                                                                In 2006, suppliers received
          Nearly all of the additional $11.9 million that
                                                                payments totaling $11.9 million
           Medicare allowed for DME provided during             for the 107,928 DME claims
       non-Part A stays in Medicaid-certified NFs and           allowed for Medicare
       distinct part nursing homes was inappropriate            beneficiaries during stays in
                                                                3,373 nursing homes identified
                      as NFs or as distinct part nursing homes. Medicare paid $9.2 million;
                      the remaining $2.7 million was paid by or on behalf of beneficiaries
                      (i.e., Medicaid, supplemental insurance, or private resources). Most
                      DME claims (83 percent of the 107,928 claims) were made for
                      beneficiaries residing in distinct part nursing homes.
                      Our conclusion that nearly all of the $11.9 million was paid
                      inappropriately is based on the survey of a sample of these nursing
                      homes to determine the extent to which they provide primarily skilled
                      levels of care or rehabilitation services. Results indicate that nearly all
                      of the sampled nursing homes provide primarily skilled care or
                      rehabilitation.

                      Of the 78 nursing homes responding to our survey, 96 percent do not
                      qualify as beneficiaries’ homes for DME payment purposes. Specifically,


    OEI-06-07-00100   PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                            15
F   I N D I N G        S


                      12 of 14 NFs and 63 of 64 distinct part nursing homes provide primarily
                      skilled care or rehabilitation. Utilizing this sample, the projected
                      amount inappropriately paid was $11.2 million. The 95-percent
                      confidence interval ranged from a low of $8.0 million to a high of
                      $14.3 million.

                      As with non-Part A stays in SNFs and dually certified SNF/NFs, the
                      inappropriately allowed DME in NFs and distinct part nursing homes
                      were typically billed identifying the places of service as the
                      beneficiaries’ homes (97 percent), mostly for wheelchairs and oxygen
                      (72 percent), and consisted mostly of rentals (78 percent).


                                                              When suppliers prepare DME
CMS and States do not maintain a primary level of
                                                              claims or claims are processed for
   care designation for nursing homes that could              payment by DME MACs, it is
facilitate accurate claim submission by suppliers             important that the appropriate
        and proper claim adjudication by payment              place of service codes be utilized.
                                         contractors          However, suppliers that code
                                                              place of service and MACs that
                    adjudicate claims do not have ready access to the primary level of care
                    status of NFs and distinct part nursing homes unless this information is
                    provided directly by these facilities. The lack of access to this
                    information results from CMS or States not making these
                    determinations and maintaining results in an accessible database.
                    CMS reported that it does not maintain information regarding primary
                    level of care for NFs and distinct parts and indicated that States have
                    the responsibility for maintaining this information. We contacted all
                    State agencies in an attempt to determine the primary level of care
                    provided by NFs and distinct part nursing homes. Twenty-one States
                    require that nursing homes licensed in their States provide primarily
                    skilled care or rehabilitation. Of these 21 States, 13 have statutes that
                    specifically require this level of care for State licensure. In the
                    remaining 29 States, there may be nursing homes that do not provide
                    primarily skilled care or rehabilitation, or include a distinct part that
                    does not provide primarily skilled care or rehabilitation.




    OEI-06-07-00100   PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                            16
Δ   R E C O M M E N D A T I O N S

                  When setting DME payment policy, Congress recognized the
                  responsibility of institutions to meet patients’ medical needs, regardless
                  of the primary payer for the stays (i.e., Medicare, Medicaid, or private
                  resources). Consequently, each nursing home must provide DME as an
                  integral part of its basic daily rate unless it is not providing primarily
                  skilled care or rehabilitation. Yet, very few nursing homes provide care
                  lower than skilled. Although payment contractors routinely deny DME
                  payment for claims submitted with a nursing home place of service
                  designation, an incorrect place of service designation (i.e., home) results
                  in inappropriate payment. Past OIG studies have highlighted this
                  issue; however, payment controls are still insufficient to stop
                  inappropriate DME payments.

                  To address inappropriate payments, we recommend that CMS:

                  Use electronic resident assessment data contained in the MDS to
                  establish a routine process to periodically (e.g., annually) generate a list
                  of non-Part A beneficiary stays in nursing homes that provide primarily
                  skilled care or rehabilitation. CMS should then direct contractors to
                  identify and recover inappropriate DME payments. Further, CMS
                  should direct contractors to identify suppliers that repeatedly submit
                  incorrect place of service on DME claims and forward such information
                  to the OIG Office of Investigations.

                  Implement a process or processes to identify patients entering nursing
                  homes with rented DME. Nursing homes could use this information to
                  alert suppliers of the beneficiary’s change of address.

                  Determine which NFs and distinct part nursing homes provide primarily
                  skilled care, thus not qualifying as a beneficiary’s home for DME payment
                  purposes. State Medicaid agencies and CMS do not evaluate and
                  maintain this information. At a minimum, CMS could require State
                  Medicaid agencies to make the determination using the available CMS
                  administrative criteria. This designation should then be available to
                  claims processors, nursing homes, and suppliers.

                  Direct contractors to recoup the inappropriate payments identified in this
                  report. We will forward claim-specific information to CMS under
                  separate cover.




OEI-06-07-00100   PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                        17
R   E C O        M M E N D A T                        I O N              S           




                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS concurred with our recommendations to establish a routine
                      process to periodically identify non-Part A stays using MDS and to
                      recover inappropriate payments identified in this study. The draft
                      report also recommended that CMS (1) expand the resident
                      assessment process to identify whether the patient entered the
                      nursing home with DME and (2) use the Online Survey Certification
                      and Reporting system (OSCAR) to determine and report which NFs
                      and distinct part nursing homes qualify as beneficiary homes for
                      DME payment purposes. Although agreeing with the underlying
                      objectives of these two recommendations, CMS suggesed alternative
                      approaches using claims processing edits to address them.
                      We agree that other methods may achieve the same objectives, so we
                      have made changes to the recommendations. Rather than prescribe the
                      needs assessment as the tool for identifying DME, this final report
                      recommends only that CMS implement a process or processes for this
                      purpose. Also, we removed reference to OSCAR as the method that
                      CMS should use to determine and disseminate information on the home
                      status of NFs and distinct part nursing homes.

                      We defer to CMS on the appropriate methods to address these
                      recommendations. In the comments on the draft report, CMS suggests
                      that claims processing edits could address the recommendations, but no
                      details were provided on how such edits would work. We ask that CMS
                      provide this information in its final management decision.

                      For the full text of CMS’s comments, see Appendix D.




    OEI-06-07-00100   PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                            18
Δ   A P P E N D I X                              A

                  MEDICARE LEARNING NETWORK MATTERS
                  ARTICLE SE0745 REPRINTED*
                  Skilled Nursing Facility Definition Used To Determine Durable Medical
                  Equipment Coverage and in Ending a Benefit Period or Spell of
                  Illness 32

                  *Italics in document added for emphasis; abbreviations used to save space.

                  Coverage of a beneficiary’s skilled nursing facility (SNF) stay under
                  Part A (the Original Medicare plan’s hospital insurance program)
                  encompasses the overall package of institutional care that the SNF
                  furnishes during the course of the beneficiary’s Medicare-covered stay.
                  This comprehensive Part A coverage includes durable medical
                  equipment (DME) under the heading of “. . . drugs, biologicals, supplies,
                  appliances, and equipment . . .” as stated in § 1861(h)(5) of the Social
                  Security Act (the Act). 33
                  When a beneficiary’s SNF stay does not qualify for Part A coverage
                  (no qualifying three-day hospital stay, SNF level of care not met, etc.),
                  Part B (the supplementary medical insurance program) generally can
                  still provide limited coverage for certain individual “medical and other
                  health services” described in § 1861(s) of the Act. However, as
                  explained below, the scope of coverage under the Part B benefit for DME
                  (§ 1861(s)(6) of the Act) specifically excludes items that are furnished for
                  use in the SNF setting.
                  •	     Section 1861(n) of the Act limits Part B coverage under the DME
                         benefit to those items that are furnished for use in a beneficiary’s
                         home. This provision further specifies that any institution
                         meeting the basic definition of a hospital in § 1861(e)(1) of the Act,
                         or of an SNF in § 1819(a)(1) of the Act, cannot be considered a
                         patient’s “home” for this purpose. Section 1819(a)(1) of the Act
                         (formerly § 1861(j)(1) of the Act), in turn, defines a “SNF” broadly
                         as any institution that is engaged primarily in providing skilled



                  32 Centers for Medicare & Medicaid Services (CMS), “Medicare Learning Network Matters,
                  Article #SE0745,” October 25, 2007. Available online at
                  http://www.cms.hhs.gov/MLNMattersArticles/2007MMAN/itemdetail.asp?filterType=none&filterByDID
                  =99&sortByDID=8&sortOrder=ascending&itemID=CMS1204646&intNumPerPage=10. Accessed on
                  May 6, 2008.
                  33 The Act can be accessed online at http://www.ssa.gov/OP_Home/ssact/ssact-toc.htm.
                  Accessed in June 2008.



OEI-06-07-00100   PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                        19
A   P   P E N D       I X           A


                             nursing (clause (A)) or rehabilitation services (clause (B)) to its
                             residents.
                      •	     This expansive SNF definition omits the specific, more restrictive
                             elements contained in the remainder of §§ 1819(a)-(d) of the Act,
                             which list the detailed requirements that an institution must
                             meet in order to participate in the Medicare program as a certified
                             SNF. Thus, in excluding Part B coverage for DME furnished in
                             “SNFs” as defined broadly in § 1819(a)(1) of the Act, Congress
                             intended for this exclusion to encompass not only all Medicare-
                             participating SNFs, but also any other institutions which, though
                             not participating in Medicare, do provide the type of care
                             described in that section of the law. 34
                      •	     The blanket prohibition that Congress imposed on any separate
                             Part B payment for DME furnished in this setting (see § 144(d) of
                             the Social Security Amendments of 1967, P.L. No. 90-248) would
                             appear to reflect the view that any institution whose primary
                             function is to provide skilled care to its residents would have an
                             inherent responsibility to dispense DME, when needed. This
                             would mean that payment for such items is already an integral
                             part of the skilled facility’s basic inpatient rate. Accordingly, any
                             separate, additional DME payment under Part B in this situation
                             would be redundant. Modifying or eliminating the statutory
                             prohibition on Part B payment for DME furnished in this setting
                             would require legislation to amend the law itself.
                      Additional Considerations for DME Furnished in Medicaid-Only Nursing
                      Facilities
                      Additional considerations apply in determining whether a Medicaid-
                      only nursing facility (NF) would meet the basic SNF definition in this
                      context. Medicaid NFs were created when the Omnibus Budget
                      Reconciliation Act of 1987 (OBRA 1987) enacted nursing home reform
                      legislation that combined the previously separate Medicaid categories of
                      SNFs and intermediate care facilities (ICF) into a single category. Prior
                      to the OBRA 1987 changes, Medicaid SNFs were always considered to
                      meet the law’s basic definition of a SNF, while pursuant to a U.S.
                      District Court decision in Kron v. Heckler (E.D. La., October 17, 1983),


                      34 This policy is also reflected in the regulations in title 42 CFR § 410.38(b) and in CMS’s
                      “Medicare Benefit Policy Manual,” chapter 15, § 110.1.D. Available online at
                      http://www.cms.hhs.gov/manuals/iom/list.asp. Accessed in June 2008.



    OEI-06-07-00100   PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                            20
A   P   P E N D       I X           A


                      those facilities licensed or certified solely as ICFs were never considered
                      to meet the basic SNF definition.
                      •	     The parallel Medicare SNF and Medicaid NF definitions that
                             OBRA 1987 established in §§ 1819(a)(1) and 1919(a)(1) of the Act,
                             respectively, both turn on the type of care that the facility is
                             engaged primarily in furnishing. However, while the NF
                             definition in § 1919(a)(1) of the Act contains a clause (A) for
                             skilled nursing and a clause (B) for rehabilitation services that are
                             identical to their SNF counterparts in § 1819(a)(1) of the Act, it
                             also contains an additional clause (C) for health-related
                             institutional care above the level of room and board (comparable
                             to the type of care furnished by intermediate care facilities (ICF)
                             prior to OBRA 1987), which is not found in the SNF definition.
                      •	     Thus, if a Medicaid NF is engaged primarily in furnishing skilled
                             care under either clauses (A) or (B) of § 1919(a)(1) of the Act, it
                             would meet the basic SNF definition and cannot be considered a
                             “home” for purposes of DME coverage under Part B.
                             Alternatively, if the NF is engaged primarily in furnishing
                             essentially ICF-level care under clause (C) of this provision, it
                             would not meet the basic SNF definition and can be considered a
                             home for DME coverage purposes. Thus, because some NFs meet
                             the basic SNF definition while others do not, NFs cannot, as a
                             class, automatically be regarded as either qualifying or not
                             qualifying as a “home” for DME coverage purposes and, therefore,
                             must be evaluated individually under the administrative criteria
                             discussed below.
                      Administrative Criteria
                      Administrative criteria to identify those institutions that meet the
                      basic SNF definition are used by each of the State agencies that
                      survey the individual institutions within their jurisdictions. 35 These
                      criteria also were published in the Federal Register as Health Care
                      Financing Administration Rulings 83-2 (47 FR 54551, December 3,
                      1982) and 83-3 (49 FR 10710, March 22, 1984). Historically, it has
                      been the State survey agency’s responsibility to evaluate an
                      institution in terms of these criteria. This evaluation reflects the type
                      of care that the institution provides to its residents generally (rather


                      35 CMS, “State Operations Manual” (SOM), chapter 2, § 2166. Available online at
                      http://www.cms.hhs.gov/manuals/downloads/som107c02.pdf. Accessed in June 2008.



    OEI-06-07-00100   PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                            21
A   P   P E N D       I X           A


                      than the type of care that an individual resident may be receiving at a
                      given point in time), because the requirements of the law relate to the
                      type of care that an institution is engaged primarily in providing to its
                      overall resident population.
                      •	     Further, States can choose to incorporate the requirements of
                             § 1819(a)(1) of the Act directly into their own facility licensure
                             standards as seen in CMS’s SOM, chapter 2, § 2164. In a State
                             that elects to adopt this approach, simply ascertaining that a
                             particular nursing home is licensed under the applicable facility
                             category of State law can also serve to confirm that the facility
                             meets the basic SNF definition in § 1819(a)(1) of the Act.
                      Applying the Criteria in Institutions That Contain a Participating “Distinct
                      Part”
                      •	 Generally, the determination of whether an institution meets the
                         basic SNF definition is made by evaluating it as a single unit
                         rather than by separately evaluating and classifying individual
                         areas within the institution. In order to categorize a particular
                         portion of an institution separately from the remainder of that
                         institution, it is necessary for that portion to constitute a “distinct
                         part” (e.g., a separate, physically identifiable unit consisting of all
                         the beds in a particular building, floor, wing, or ward). (See the
                         regulations at 42 CFR 483.5(b).)
                      •	     In this situation, if the participating distinct part of an institution
                             meets the basic SNF definition and the remainder of the
                             institution does not, DME payment would be available under
                             Part B only in the portion of the institution that qualifies as a
                             “home” for DME coverage purposes by virtue of not meeting the
                             basic SNF definition. Part B payment would not be available for
                             DME furnished in any part of the institution that is identified as
                             meeting the basic SNF definition, regardless of the type of care
                             that a particular resident may be receiving there.

                      A more detailed discussion of situations in which part of an institution
                      meets the basic SNF definition and part of it does not appears in
                      chapter 5, § 1 of the “Medicare Program Integrity Manual,” also
                      available online at http://www.cms.hhs.gov/manuals/iom/list.asp on the
                      CMS Web site. This is the same material that originally appeared in
                      § 4105.1 of the “Medicare Carriers Manual,” Part 3 (CMS Publication
                      14-3).



    OEI-06-07-00100   PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                            22
Δ   A P P E N D I X                                  B

                               DURABLE MEDICAL EQUIPMENT BILLING CODES
                                     INCLUDED IN THE EVALUATION

                           HCPCS Codes*                                                                        Categories

            E0100–E0105                                                                                                                                      Canes

            E0110–E0118, E0153                                                                                      Crutches and related accessories

            E0130–E0159                                                                                                                                     Walkers

            E0160–E0175, E0240–E0249, E0968                                                                Bath/commode and related accessories

            E0180–E0199, E0277, E0370–E0373                                                                                    Decubitus care equipment

            E0200–E0239, E0249                                                                                                         Hot/cold applications

            E0250–E0373, E0462                                                                               Hospital beds and related accessories

            E0424–E0601, E0605, E0618–E0619,                                                   Oxygen and respiratory equipment and supplies
            E1353–E1406, K0730–K0738

            E0607                                                                                                                    Blood glucose monitor

            E0610–E0620                                                                                          Pacemaker monitor and defibrillator

            K0606–K0609                                                                                                            Defibrillator accessories

            E0621–E0642                                                                                              Patient lifts, standing devices/lifts

            E0650–E0675                                                                                     Pneumatic compressor and appliances

            E0720–E0769                                                              Transcutaneous and/or neuromuscular electrical nerve
                                                                                                                             stimulators

            E0776 (without BA modifier)–E0791, K0455,                                     Infusion pump for medications and related supplies
            E1520, K0552, K0601–K0605

            E0830–E0900                                                                                                                   Traction equipment

            E0910–E0948, E0951–E0952                                                    Trapeze equipment, fracture frame, other orthopedic
                                                                                                                                    devices

            E0955–E1298, K codes                                                                               Wheelchairs and related accessories

            E1340                                                                                                              Repairs and replacements

            E1700–E1702                                                                     Jaw motion rehabilitation system and accessories

           * Healthcare Common Procedure Coding System (HCPCS) codes listed within ranges are in specified
           categories, except as specified elsewhere.




OEI-06-07-00100       PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                                23
Δ   A P P E N D I X                              C

                  DEFINING PRIMARY LEVEL OF CARE
                  To identify the primary level of care provided by nursing facilities (NF)
                  and nursing homes with distinct parts, we utilized our sample of
                  311 nursing homes. Of the 311 nursing homes, 65 were identified
                  through CMS’s Online Survey, Certification, and Reporting system as
                  distinct part nursing homes and 21 were certified as NFs. We contacted
                  these 86 nursing homes to determine the primary level of care that they
                  provided, independent of their certification status; 78 responded. We
                  asked each nursing home to tell us whether it met the following four
                  criteria identified in the “State Operations Manual” (SOM) maintained
                  by the Centers for Medicare & Medicaid Services (CMS):
                  •	 One or more nurses (registered nurses or licensed practical or
                     vocational nurses) direct or supervise nursing services without
                     regard to whether the facility has the nurse staffing requirement
                     “waived.” (SOM § 2166A.)
                  •	 Nursing personnel are on duty 24 hours a day. (SOM § 2166B.)
                  •	     The number of full-time-equivalent nursing personnel to the number
                         of beds is at least an average ratio of 1 to 15 per shift.
                         (SOM § 2166C.)

                  •	     Other services (e.g., bed and board) are provided to inpatients in
                         connection with the furnishing of nursing care, plus one or more
                         medically related health services (e.g., physician’s services;
                         physical, occupational, or speech therapy; diagnostic and
                         laboratory services; and administration of medication).
                         (SOM § 2166D.)
                  If a nursing home indicated in all four instances that it met the criteria,
                  we determined that the facility engaged primarily in providing a skilled
                  level of care.

                  These four criteria are those identified as CMS’s “Administrative
                  Criteria for Identifying Facilities That Meet 1819(a)(1).” 36 Section
                  1819(a)(1) of the Act discusses nursing services. This section also
                  contains the statutory definition of a skilled nursing facility (SNF),
                  which is the basis for Medicare certification requirements of SNFs in
                  42 CFR 483, subpart B. In many States, licensing laws for all nursing


                  36 CMS, SOM. Available online at
                  http://www.cms.hhs.gov/manuals/downloads/som107c02.pdf. Accessed in June 2008.



OEI-06-07-00100   PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                        24
A   P   P E N D       I X           C


                      homes have incorporated the requirements of § 1819(a) or § 1919(a) of
                      the Act or the criteria contained in § 2166. When this is the case, any
                      nursing home licensed in such States cannot be considered a resident’s
                      home for purposes of spell of illness, durable medical equipment,
                      ambulance, and home health benefits. In other States, it may be
                      necessary for the State agency to make § 1861(e)(1) or § 1819(a)(1)
                      certifications. As indicated, SNFs meet § 1819(a)(1) requirements, as do
                      long-term-care nursing homes in States where licensure laws require it.
                      In other situations, a facility or a part of a facility meets the standard
                      set forth in § 1819(a)(1) of the Act for purposes of determining skilled
                      level of care if the nursing home meets each of the four criteria listed on
                      the previous page.




    OEI-06-07-00100   PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                            25
Δ      A P P E N D I X                                 D

                          AGENCY COMMENTS


           /",'M",
          (~           DEI'ARTMENT OF IIEALTH • HUMAN SERVICES

                                                                                                                               2OO~""",."",,-SW
                                                                                                                               ~DC20201




                      DATE:

                      TO;
                                            APR 1 0 2009
                                          Daniel R. Levinson
                                                                                                                                          ~
                                                                                                                                          ~
                                                                                                                                          Z
                                                                                                                                                   ---'"
                                                                                                                                                   ~
                                                                                                                                                   ~


                                                                                                                                         ~
                                                                                                                                                   W
                                          Inspector 0-JJI                                                                                ~



                                  ~ri7.Zer:?r~
                                                                                                                                                   ~
                                                                                                                                         >
                                                                                                                                         c         ~
                      .'ROM:
                                          Acting Administmlor                                                                                      '"
                                                                                                                                                   w
                                                                                                                                                   c
                                                                                                                                                           t


                      SUIUEcr;            Office of Inspector General (OIG) Draft Report: "Purl 13 Serviecs During
                                          Non-Part A Nursing Homc Slays: Durable Medical EquipmCnl" Om-06­
                                          07-00100



                      .......
                      Thank you for the opportunity to review and comment on the alxl\"e-referenccd 010 drall


                      Medicare Parl A CO\'CfS nursing home care for a beneficiary's stay up 10 100 days in a
                      skilkd nursing facility (SNF). If nursing home care is still needed after the 100 days or
                      the bcncliciarydoes IIOt qualify for Part A SNF stay, Medi~ Pan B may provide
                      coverage for certain medical and other health saviccs. However, Pan B does IIOt pay for
                      durable medical equipment (DME) provided during a nursing home stay unless the
                      nursing home qualilies as a beneliciary's home.

                      The OIG found that Medicare Part 13 allowed ilt:l.ppropriute paymcnts of530 million in
                      2006 for DME provided during non-I',lrt A stay~ in Medieare-eertit1ed SNFs. Medicare
                      Part Il inappropriately allowed payment of$23.4 million in 2006 for DME provided
                      durinG non-I'art A stays in Mcdicare·certil1ed SNFs and $7.1 million was paid by or on
                      behalfofbeneliciaries (i.e.. Medicaid, supplemenlal insurdllee or private resources). For
                      98 percent oflhe claims in the DIG sample, suppliers illcol'Tl:X:tly indicaled lhat DME was
                      for use in the beneficiary's home. Ofthc 523.4 million ill inappropriate payments, S22.9
                      millioo of the DME payments were for rentals for which there an: paymelltlimitatioru;
                      upon a beneficiary's nursing home admission.

                      The DIG II'Ialk the following reoornmmdalions:

                      DIG R«ommendalion

                      Usc electronic resident assessment data contained ill the Minimum Data Set (MDS) to
                      establish a routine process 10 periodically (e.g., annually) genemte a list of non-PIlr1 A
                      bencl1cillry stays in nursing homes that provide primarily skilled care or rehabilitation.




    OEI-06-07-00100       PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                                26
A   P   P E N D       I X             D           





                      Page 2 - Daniel R. Levinson




                      We concur with the rooommendation. eMS will seck to provide Medicare Recovery
                      Audit Contrnetors access to the MOS data for the pIllpOSC of periodically checking
                      whether beneficiaries who rec:cived Pan B OME services were residents of nursing
                      homes lhat do 001 qualify as a beneficiary's home.

                      OIG    R~mmC'ndlllion


                      Ell:pand the residenl assessmC'flt process 10 idcrllify ...."hC'ther!he patient mtl:!'ed the
                      nursing home with the DME and whether it is owned or InItC'd by the benefICiary.

                      eMS     R~ponse


                      We agrec with Ihc underlying objectivc of increasing the available data on DME usage in
                      nursing homes. llowever, we do not concur wilh lhis recommendation as it is cUlTCntly
                      stmcture<!. We arc concenled that the recommended approach cssenlially proposes 10
                      achieve this objective through a clinical vehicle that is 1I0t wcll-suitC'd to this purposc.
                      The MilS is a clinically-based asscssmenttool used 10 detcnnine patients' health,
                      physical functioning, and medical conditions. In addition, the MDS is completed by an
                      interdisciplinary cliniealtearn whose primary focus is care planning. As a result, we do
                      not see the MOS as an effective mechanism for the accurate collectkm of an inventory of
                      the palicnlS' OME. including status ofownership. Instead. eMS will explore the
                      feasibility ofcreating a claims procc:ssing system edillhat would pl'C\'enl improper
                      payments for DME furnished to benefICiaries during a non-Pan A nursing home stay.

                      OIG Rerommend:ation

                      Drtcrmille which nursing facilities (NFs) and distinct pan nursing homes qualify lIS II
                      beneficiary's home for OME payment purposes and mainlain this designation in Onlinc
                      Survey, Cenification, and Reponing (OSCAR) system.

                      CMS Response

                      We agrec with the underlying objective to explore ways to determine whethcr a nursing
                      home serves as a resident's home for thc purposes of making proper OME payments;
                      however, we do not concur with this recommendalion. OIG's recommendation seeks to
                       usc the OSCAR system lIS a way to designate Nt's or distinct part nursing homes that
                      qual ify as a beneficiary's home. The OSCAR database's fundamental purpose: is dircctC'd
                      toward facililY 1Cl-'c! survey and certification information. Thc determination ofwhcthcT
                      the nursing home is really a specific beneficiary's horne is individualized 10 the
                      beneflCiary"s coverage for payment pwposcs. Consequently, individual designation of
                      .....hether a givcn nursing home is a beneficiary's home may not be bc::st located in
                      OSCAR, However, consi~cnt with the rationale offered in our I"CSpOI1SC to
                      Recommendation 2, there may be a1ternativc approaches considered by CMS for a claims
                      processing OOilto prevent improper D~E payments.




    OEI-06-07-00100     PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                              27
A   P   P E N D        I X             D           





                      Page 3 - Daniel R. Levinson




                      OIG Rttommtndalion

                      Direct contractors to recoup the inappropriate payments identified in this                              rqlOrt.

                      eMS    Rt1[!On~t


                      We agree that the inappropriate payments (subjecl to verification by the Medicare
                      conlrBClors) should be recovered. CMS plans 10 recover the OveTpaymenls idenlified
                      consistent .....i th the Agency's policies and procedUIl:3.

                      The OIG will be required to furnish. for each overpayment or potential overpayment, the
                      data necessary (Medicare contractor numbers, provider numbers, claims information
                      including the paid date, WC numbers, ctc.) 10 initiatc and complclc recovery aClion. In
                      addition, Medicare contractor-spedfic data should be wrillen to separate CD·ROMs or
                      separote hardcopy worksheets in order 10 bener facilitate the transfer of information to
                      the appropriate contractors.




    OEI-06-07-00100      PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                               28
A   P   P E N D       I X           ~
                                    C           D
Δ       A C K N O W L E D G M E N T S




                      This report was prepared under the direction of Kevin K. Golladay,
                      Regional Inspector General for Evaluation and Inspections in the Dallas
                      regional office, and A. Blaine Collins, Deputy Regional Inspector
                      General.

                      Leah K. Bostick served as the team leader for this study, and
                      Dana McClellen served as lead analyst. Other principal Office of
                      Evaluation and Inspections staff from the Dallas regional office who
                      contributed to the report included Petra Johansson, Margaret Knight,
                      Sai Loganathan, and Jeremy Moore; central office staff who contributed
                      include Robert L. Gibbons, Scott Horning, Jennifer Jones, and
                      Sandy Khoury.




    OEI-06-07-00100   PA R T B S E R V I C E S D U R I N G N O N - PA R T A N U R S I N G H O M E S TAY S : D U R A B L E M E D I C A L E Q U I P M E N T
                                                                                                                                                            29
